District Court Of Appeal Of The State Of Florida
Fourth District
ANTONIO MOSS,
Appellant,
v.
STATE OF FLORIDA,
Appellee.
No. 4D20-530
[April 16, 2020]
Appeal of order denying rule 3.800 motion from the Circuit Court for
the Seventeenth Judicial Circuit, Broward County; Timothy L. Bailey,
Judge; L.T. Case No. 88-5583-CF10-A.
Antonio Moss, Crestview, pro se.
No appearance required for appellee.
Per Curiam.

Affirmed.
Damoorgian, Ciklin and Conner, JJ. concur.

Not final until disposition of timely filed motion for rehearing.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM BEACH, FL 33401
May 29, 2020

CASE NO.: 4D20-0530
L.T. No.:
88-5583CF10A
ANTONIO MOSS

v.

Appellant / Petitioner(s)

STATE OF FLORIDA
Appellee / Respondent(s)

BY ORDER OF THE COURT:
ORDERED that appellant's May 4, 2020 motion for rehearing and request for written
opinion is denied.

Served:
cc: Attorney General-W.P.B.

Antonio Moss

kr

LONN WEISSBLUM, Clerk
Fourth District Court of Appeal

IN THE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT
IN AND FOR BROWARD COUNTY,
FLORIDA
STATE OF FLORIDA,
CASE NUMBER: 88-5583CF10A
vs.

ANTONIO MOSS.
Defendant.

JUDGE:

TIM BAILEY

ORDER ON DEFENDANT’S MOTION FOR
CORRECTION OF ILLEGAL SENTENCE
THIS CAUSE having come before this Court upon the Defendant's Motion for
Correction of Illegal Sentence filed on July 23, 2019 and the State’s Response, and being
fully advised in the premises, it is hereby,
ORDERED AND ADJUDGED that Defendant’s Motion for Correction of Illegal
Sentence filed on July 23, 2019 is hereby Denied for the reasons set forth in the State's
Response. A copy of the State’s Response has been attached for reference.
The defendant has thirty (30) days from the date of rendition of this Order to file an
appeal.
DONE AND ORDERED in Chambers, at
Florida, this 14th day of-Bccember, 2019.

Lauderdale^B^l)ward County.

OSnuQM /"

ircuit Court Judge

cc: State Attorney’s Office V/
Antonio Moss, Defendant
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd.
Crestview, FL 32539

